No. 21A23
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ALABAMA ASSOCIATION OF REALTORS, ET AL., APPLICANTS
v.
DEPARTMENT OF HEALTH AND HUMAN SERVICES, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the RESPONSE IN OPPOSITION TO APPLICANTS’ EMERGENCY APPLICATION
TO VACATE THE STAY PENDING APPEAL ISSUED BY THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF COLUMBIA, via email and first-class mail,
postage prepaid, this 23rd day of August, 2021.
[See Attached Service List]

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 23, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

21A23
ALABAMA ASSOCIATION OF REALTORS
DEPARTMENT OF HEALTH AND HUMAN SERVICES, ET AL.
BRETT A. SHUMATE
JONES DAY
51 LOUISIANA AVENUE, NW
WASHINGTON, DC 20001

